           U.S. Department of Energy
           Office of Inspector General
           Office of Audit Services




Audit Report
Report on the Audit of National Security
Technologies, LLC Costs Claimed
under Department of Energy Contract
No. DE-AC52-06NA25946 for Fiscal
Year 2007




OAS-FC-09-01                             May 2009
                               Department of Energy
                                    Washington, DC 20585

                                         May 18,2009



MEMORANDUM FOR THE MANAGER, NEVADA SITE OFFICE


FROM:
           4p.5h-
              George W. Collard
              ~ssistantInspector General for Performance Audits
              Office of Inspector General

SUBJECT:      INFORMATION: Audit Report on "Audit of National Security Technologies,
              LLC Costs Claimed Under Contract No. DE-AC52-06NA25946 for Fiscal Year
              2007"


BACKGROUND

National Security Technologies, LLC (NSTec), the management and operating contractor of the
Nevada Test Site (Test Site), assumed its management responsibilities on July 1,2006, under
Department of Energy (Department) contract DE-AC52-06NA25946. We performed an audit of
costs claimed under the contract for Fiscal Year (FY) 2007 (October 1,2006 to September 30,
2007). For FY 2007, NSTec's Statement of Costs Incurred and Claimed (SCIC) reported total
costs claimed of $358,876,930. The audit was performed from April 2008 to January 2009 at the
NSTec offices in North Las Vegas, Nevada and was limited to costs claimed for FY 2007, which
will determine the basis for signing the SCIC.

RESULTS OF AUDIT

Of the $358,876,930 in claimed costs for FY 2007, we questioned costs totaling $84,566 that
included expenditures for relocation, subsistence and vehicle usage, and travel expenses. With
regard to the cost balance of $358,792,364, nothing came to our attention to indicate that the
costs were not allowable. Final acceptance of amounts claimed, however, under government
contracts does not take place until performance under the contract is completed and accepted by
the responsible contracting officials and audit responsibilities have been fulfilled.

We identified $47,649 in questioned relocation costs that either exceeded the amount allowable
or were expressly unallowable under the contract. For example, we found unallowable costs
totaling $41,837 that related to loan origination fees, loan discounts, home inspection fees, and
owner's title insurance payments. We also questioned $5,812 in per diem expenses that exceeded
the maximum reimbursement allowed under the applicable Federal Travel Regulation.

In addition, we questioned $26,192 in subsistence costs paid to NSTec employees who used a
government vehicle to travel to and from the Test Site. These costs were expressly unallowable


                                @     Printed with soy ink on recycled paper
                                                2


under NSTec's contract and internal policy. This policy stipulates that although employees who
are ordered to and report to remote work locations, including the Test Site, qualify for
subsistence allowance, they must use non-government transportation to receive the subsistence
allowance. If the transportation is provided by the government, employees are not entitled to the
subsistence allowance.

We also questioned $10,725 in travel expenses based on a lack of supporting documentation,
allowability, and reasonableness. Specifically, one traveler claimed $10,250 in lodging costs
without substantiating the actual costs incurred by the host. Finally, we questioned $475 in
miscellaneous travel costs.


MANAGEMENT REACTION

Management concurred with the report's findings and their planned corrective actions are
responsive to our recommendations. The complete text of management's comments are attached
as Appendix 2

Attachment

cc:   Office of the Deputy Secretary
      Chief of Staff
      Acting Director, Policy and Internal Controls Management, NA-66
      Audit Liaison, NNSA/Nevada Site Office
      Team Leader, Audit Liaison Team, CF-1.2
REPORT NUMBER: OAS-FC-09-01

                                                AUDIT OF
                                  NATIONAL SECURITY TECHNOLOGIES, LLC
                                         COSTS CLAIMED UNDER
                                     CONTRACT NO. DE-AC52-06NA25946
                                          FOR FISCAL YEAR 2007


                                                     TABLE OF CONTENTS




                                                                                                                                 Page

Background and Description of Audit ..........................................................................                     1

Audit Results ................................................................................................................     2

Recommendations ........................................................................................................           4

Management Reaction .................................................................................................              4

Auditor Comments .......................................................................................................           5

Exhibit A - Fiscal Year 2007 Audit Results ................................................................                        6


Appendices:


1. Related Audit Reports..............................................................................................             7

2. Management Comments ..........................................................................................                  8
                AUDIT OF NATIONAL SECURITY TECHNOLOGIES, LLC
             COSTS CLAIMED UNDER CONTRACT NO. DE-AC52-06NA25946
                             FOR FISCAL YEAR 2007


REPORT NO: OAS-FC-09-01                                                      Date: May 18, 2009


BACKGROUND AND DESCRIPTION OF AUDIT

National Security Technologies, LLC (NSTec) is the management and operating contractor of
the Nevada Test Site (Test Site). NSTec assumed the management and operating responsibilities
for the Test Site on July 1, 2006, under Department of Energy (Department) contract DE-AC52-
06NA25946. The site supports the National Nuclear Security Administration's (NNSA) national
security missions, first responder training, as well as environmental management restoration and
waste management activities.

We performed an audit of costs claimed under the contract for Fiscal Year (FY) 2007 (October 1,
2006 to September 30, 2007). For FY 2007, NSTec's Statement of Costs Incurred and Claimed
(SCIC) reported total costs claimed of $358,876,930. Of this amount, program operating costs
were $423,342,824. The difference of $64,465,894 represents depreciation, transfers, and other
non-cash items. The objective of our audit was to determine the allowability of costs claimed by
NSTec and charged to the Department during FY 2007. Allowable costs are costs incurred that
are reasonable, allocable, and not expressly unallowable in accordance with the terms of the
contract, applicable cost principles, laws and regulations as well as generally accepted
accounting principles and practices appropriate to the particular circumstances.

We performed the audit from April 2008 to January 2009 at the NSTec offices in North Las
Vegas, Nevada. The audit scope was limited to costs claimed for FY 2007, which will determine
the basis for signing the SCIC. To accomplish the audit objective, we reviewed the totals
presented in the SCIC and tested transactions by tracing them to books of original entry as well
as to supporting records and documentation. We did not evaluate the technical aspects of
NSTec's performance.

We conducted our audit in accordance with generally accepted government auditing standards
applicable to this financial-related audit. Criteria used in evaluating the claimed costs included
the terms of the contract and applicable cost principles. We obtained a sufficient understanding
of NSTec's cost accounting systems and internal controls to plan the audit and to determine the
nature, timing, and extent of tests to be performed. Our purpose, however, was not to form an
opinion on the cost accounting systems and internal controls. We relied on computer processed
data to accomplish our audit objective and conducted limited tests to ensure the reliability of data
we considered critical to our audit objective.

Because of inherent limitations in any control structure, unallowable costs may be incurred and
not detected. In addition, projection of any review of the structure to future periods is subject to
the risk that procedures may have become inadequate because of changes in conditions or that
the degree of compliance with the procedures may have deteriorated.

The results of our audit work were discussed with the Nevada Site Office Contracting Officer for
the NSTec contract on January 21, 2009. Management waived the exit conference.

AUDIT RESULTS

Of the $358,876,930 in claimed costs for FY 2007, we questioned costs totaling $84,566 that
included relocation, subsistence and vehicle usage, and travel expenses. To arrive at the total
questioned costs, we added the direct costs and the applicable indirect costs. A schedule of the
operating costs claimed and questioned is provided as Exhibit A of this report. We also verified
that the costs reported on the FY 2007 SCIC were supported by NSTec's accounting records.
With regard to the balance of $358,792,364, nothing came to our attention to indicate that the
costs were not allowable. Final acceptance of amounts claimed, however, under Government
contracts does not take place until performance under the contract is completed and accepted by
the responsible contracting officials and audit responsibilities have been completed.

In addition to the questioned costs, we noted areas where the internal control structure over
allowable costs could be improved.

                                        Relocation Costs

We identified $47,649 in questioned relocation costs that either exceeded the amount allowable
or were unallowable under the contract. We found questioned costs totaling $41,837 that related
to loan origination fees, loan discounts, home inspection fees, and owner's title insurance
payments. We also questioned $5,812 in per diem expenses that exceeded the maximum
reimbursement allowed under the applicable Federal Travel Regulation (FTR).

Contract terms require NSTec to comply with FTR, Chapter 302, Relocation Allowances.
According to FTR § 302-11.200(f)(2), reimbursed loan origination fees may not exceed one
percent of the loan amount unless the recipient provides documentation showing that the higher
rate does not include prepaid interest, points, or a mortgage discount; and is customarily charged
in the locality where the residence is located. However, NSTec reimbursed employees $35,120
in loan origination fees that exceeded the amount allowable without obtaining the required
documentation. We noted that NSTec's Company Manual CM-3100.001-024, Human Resources
Manual: Relocation and Travel for Interviews, did not incorporate FTR restrictions that limit the
reimbursement of loan origination fees to one percent of the loan amount. Since management is
responsible for establishing an internal control structure that will ensure costs claimed are
allowable under the contract, it should ensure that its policies and procedures comply with the
FTR.

In addition, FTR §302-11, states that an agency will not reimburse expenses for loan discounts,
home inspection fees, and owner's title insurance payments. However, we identified $6,717 in
unallowable costs in the aforementioned areas. Specifically, NSTec reimbursed employees for
$5,910 in loan discount fees on home purchases and $208 for an owner's title insurance payment.


                                                 2
NSTec also reimbursed employees for $599 in home inspection fees without the supporting
documentation showing that the inspections were required by Federal, State, or local law or by
the lender as a precondition to the sale or purchase of a home.

Finally, NSTec claimed $5,812 for per diem expenses for a house hunting trip and subsistence
expenses related to temporary quarters. These per diem expenses exceeded the maximum
amount allowed under FTR §302-6.100.

                               Subsistence and Vehicle Usage Costs

We questioned $26,192 in subsistence costs paid to NSTec employees who used a government
vehicle to travel to and from remote work stations, such as the Test Site. These costs were
expressly unallowable under NSTec's contract and internal policy which stipulates that although
employees who are ordered to and report to remote work locations, including the Test Site,
qualify for subsistence allowance, they must use non-government transportation to receive this
allowance. If employees use government provided transportation, they are not entitled to the
subsistence allowance. However, our review disclosed 709 incidents where 108 different
employees claimed and were paid a subsistence allowance even though they used a government-
owned vehicle for transportation.

NSTec's lack of enforcement of its own contract and internal policy pertaining to the use of
government vehicles for official purposes also contributed to the following questionable actions:
   1. Eighteen instances where employees checked out two or more vehicles on the same day
      with no explanation or justification;
   2. Nine instances where a vehicle was checked out of the motor pool and the employee was
      in leave status;
   3. Three cases where no employee name was listed when the vehicle was checked out; and,
   4. Two occasions where employees kept the vehicle over the weekend without proper
      approval.

                                            Travel Costs

We questioned $10,725 in travel expenses based on a lack of supporting documentation,
allowability, and reasonableness. Specifically, one traveler claimed $10,250 in lodging costs
without substantiating the actual costs incurred by his host. We also questioned miscellaneous
travel costs totaling $475.

In accordance with FTR §301-11.12, if a traveler lodges with friend(s) or relative(s), the traveler
may be reimbursed for additional costs the host incurs in accommodating the traveler only if the
traveler is able to substantiate the costs. The regulation also specifies that the traveler will not be
reimbursed a flat "token" amount when lodging with friend(s) or relative(s). We found that one
traveler claimed a $50.00 daily rate for 159 nights while staying at the residence of a co-worker's



                                                  3
parent without substantiating the additional costs incurred by his host. The same individual has
been providing lodging accommodations for this traveler since 2000 and the traveler has been
claiming the same nightly rate of $50.00 without substantiating the costs incurred by his host.

NSTec also claimed other travel expenses totaling $475 that included per diem expenses in
excess of amounts allowed per the FTR and travel costs for personal convenience that resulted in
additional charges. Contract terms state that travel-related costs shall be reasonable and
allowable to the extent they comply with the rules in the FTRs in effect at the time of travel.
Additionally, Federal Acquisition Regulation 31.205-46 states that for increased amounts to be
allowable, the traveler must have a written justification approved by an officer of the contractor's
organization. However, NSTec reimbursed an employee for lodging costs that exceeded the
allowable per diem amount without an approved written justification.


RECOMMENDATIONS

We recommend that the Manager, Nevada Site Office direct the Contracting Officer to:

   1. Make a determination regarding the allowability of costs identified in this audit and
      recover costs determined to be unallowable;

   2. Direct NSTec to revise its Human Resources Manual to incorporate additional language
      from the FTR which states that reimbursed loan origination fee charges may not exceed
      one percent of the loan amount; and,

   3. Direct NSTec management to enforce the policy for claiming subsistence allowances,
      and its policy on Government Vehicle Control.


MANAGEMENT REACTION

Management concurred with the report's findings and recommendations and indicated that their
corrective actions will be completed by December 31, 2009. Specifically, the Nevada Site
Office Contracting Officer will:

      Complete an analysis to determine the allowability of the costs questioned in our report;

      Issue a letter directing NSTec to revise its Human Resources Manual to include language
       on the reimbursement of loan origination fees; and

      Issue a letter directing NSTec to assure they follow the contract provisions which
       prohibit the use of a government vehicle if subsistence is claimed. Further, a review will
       be made of any additional unallowable costs claimed in FY 2008 to the present that have
       resulted from this error.




                                                 4
Management comments, including its corrective action plan, are included in their entirety in
Appendix 2.

AUDITOR COMMENTS
Management’s comments and planned corrective actions are responsive to our recommendations.




                                                5
                                                                                                        Exhibit A


                                   National Security Technologies, LLC
                                    Claimed Costs and Audit Results
                                   Contract No. DE-AC52-06NA25946
                                             Fiscal Year 2007


                                                     Contractor's           Questioned         Remainder
                                                    Claimed Costs             Costs


      Salaries and Fringe                                $263,653,790                           $263,653,790

      Procurement Card                                       94,949,832                           94,949,832

      Travel                                                  7,516,216           $10,725          7,505,491

      Subsistence 1                                           4,799,235            26,192          4,773,043

      Central Office2                                          955,047                               955,047

      Relocation                                               341,608             47,649            293,959

      Memberships & Subscriptions                               18,335                                18,335

      Advertising & Public Relations                            12,185                                12,185

      Miscellaneous Expenses 3                               51,096,576                           51,096,576

      Subtotals                                           423,342,824              84,566        423,258,258

      Depreciation, revenues, transfers and             ($64,465,894)                          ($64,465,894)
      other non-cash items

      Total Costs Claimed                                $358,876,930             $84,566       $358,792,364




1
  Subsistence allowances are paid to employees assigned to a remote duty station such as the Nevada Test Site.
2
  Central office expenses include corporate office expenses such as Parent Organization Oversight Plan costs.
3
  Miscellaneous expenses represent janitorial and communication services, leases and other non-cash items.




                                                         6
                                                                               Appendix 1




                                 Related Audit Reports


•   Audit of Fermi National Accelerator Laboratory Costs Claimed under Contract No. DE-
    AC02-76CH03000 (OAS-FC-06-01, April 2006). The review disclosed that Fermilab
    claimed and was reimbursed for unallowable costs in the amount of $196,835 in
    procurement card purchases, travel costs, and allocated Corporate Office expenses.
    Specifically, the unallowable procurement card purchases included $81,294 for home
    internet services which the Office of Inspector General considered unreasonable based on
    the Federal Acquisition Regulations. Fermilab could not demonstrate the need for
    employees to regularly access Fermilab computer systems and email from home. The
    report also noted that $48,550 in airfare costs on foreign air carriers were claimed and
    reimbursed without obtaining the required waivers. Finally, Fermilab was paid $59,409
    for the Universities Research Association, Inc. Corporate Office expenses that were
    either not supported or were expressly unallowable.

•   Selected Purchase Card Transactions at the Nevada Site Office (INS-O-06-01,
    November 2005). The inspection determined that internal controls over Bechtel Nevada's
    (Bechtel) purchase card program could be improved. Specifically, purchase card
    transactions were not always reviewed and approved by designated approving officials.
    As a consequence, some cardholders self-approved their purchases. In addition, purchase
    cardholders and approving officials were not completing the biennial refresher training
    within required timeframes. Further, Bechtel did not perform a monthly reconciliation of
    the Bank of America statement with Bechtel's internal purchase card financial records.
    This lack of action resulted in an overpayment. Finally, the report noted there were
    discrepancies between the purchase card policy implemented by Wackenhut Services,
    Inc., who participated in Bechtel's purchase card program, and Bechtel's purchase card
    policy.




                                           7
    Appendix 2




8
        Appendix 2



̃


̃




    9
